No. 20-A-

IN THE

fAtpreme Court of the Ilutteb btate5
HUNTER FUSSELL, an individual,
Applicant,
v.
STATE OF LOUISIANA,
Respondent.
APPLICATION FOR AN EXTENSION OF TIME TO
FILE A PETITION FOR A WRIT OF CERTIORARI
TO THE LOUISIANA SUPREME COURT

Shannon Christian
22nd JDC Public Defender's Office
402 North Jefferson Avenue
Covington, LA 70433
(985) 809-1498

Adam Pierson
Counsel of Record
Application for Admission Pending
Kenneth Schmetterer
Trumon Phillips
Virginia. Weeks
Dante Alessandri
DLA Piper LLP (US)
1900 N. Pearl Street
Suite 2200
Dallas, Texas 75201
(214) 743-4512
adam.pierson@dlapiper. corn
Counsel for Applicant

February 28, 2020

RECEiVL'ED
FEB 2 8 2020
OFFICE OF THE CLERK
SUPREME COURT US.
\...

WEST\289633847.1

TO THE HONORABLE SAMUEL A. ALITO, ASSOCIATE JUSTICE OF THE
SUPREME COURT OF THE UNITED STATES AND CIRCUIT JUSTICE FOR
THE FIFTH CIRCUIT:
Pursuant to Supreme Court Rules 13.5, 22, and 30, Applicant Hunter Fussell
respectfully requests a 45-day extension of time, up to and including April 24,
2020, to file a petition for a writ of certiorari to the Louisiana Supreme Court to
review that court's decision in State v. Fussell, 286 So.3d 1011 (La. 2019)
(attached as Exhibit A). The Louisiana Supreme Court issued its judgment in the
matter on December 11, 2019, and Mr. Fussell intends to file a petition seeking
review of this judgment under Supreme Court Rule 10. The jurisdiction of this
Court will be invoked under 28 U.S.C. ยง 1257(a), and the time to file a petition for
a writ of certiorari will expire without an extension on March 10, 2020. This
application is timely because it has been filed more than ten days prior to the date
on which the time for filing the petition is to expire. See Sup. Ct. R. 13.5.
PROCEDURAL HISTORY
This case presents a substantial question of the due process rights
guaranteed to children: whether a court must conduct an individualized hearing for
a child indicted of a criminal charge before trying that child as an adult.
Louisiana's Children's Code art. 305(A) mandates that a juvenile court
automatically loses jurisdiction over a child that is aged 15 or older "at the time of
the commission of first degree murder, second degree murder, aggravated or first
degree rape, or aggravated kidnapping" if there is an indictment charging one of

1
WEST\2896338471

these offenses or if the juvenile court holds a hearing and finds probable cause
that the child committed one of these offenses.
Mr. Fussell was four days past his fifteenth birthday when he was arrested
and charged with violating Louisiana Revised Statute 14:42(A)(4) for first-degree
rape. Immediately after his arrest, Mr. Fussell was within the exclusive
jurisdiction of Louisiana's juvenile courts under Article 305(A). But after a grand
jury returned an indictment charging Mr. Fussell with one count of first-degree
rape, Article 305(A)(2) mandated his automatic transfer from juvenile court to
Louisiana's 22nd judicial district court for him to be tried as an adult.
On a motion to quash the transfer order, the Louisiana district court for the
Parish of St. Tammany, held that Article 305(A) is unconstitutional and that a
transfer hearing is constitutionally required before a child can be transferred to a
district court and tried as an adult. The State of Louisiana appealed directly to the
Louisiana Supreme Court, which vacated and remanded the trial court's ruling by
order dated December 11, 2019. Three justices of the Louisiana Supreme Court
dissented from the majority and would have upheld the trial court's ruling that
Section 305(A) is unconstitutional. More specifically, those dissenting justices
found that Louisiana's act of mandatory transfer for children under Article 305(A)
"violates the Fourteenth Amendment Due Process Clause and violates the
fundamental principles underlying United States Supreme Court jurisprudence[.]"
Ex. A at 2 (Johnson, C.J., dissenting).
2
WEST\289633847.1

A grant of certiorari is appropriate to review the ruling of the Louisiana
Supreme Court because that ruling deprives children of their right to due process and
because it diverges from this Court's precedent, such as Kent v. United States, 383 U.S.
541 (1966), which establish the constitutional requirements of treating children
differently than adults in matters of criminal justice. See, e.g., Miller v. Alabama, 567
U.S. 460 (2012); Graham v. Florida, 560 U.S. 48 (2010); Roper v. Simmons, 543 U.S.
551 (2005).
GOOD CAUSE EXISTS FOR AN EXTENSION
Good cause exists for the requested 45-day extension of time to file a
petition for a writ of certiorari. Adam Pierson of DLA Piper LLP (US) serves as
counsel of record for Applicant in this appeal, but Mr. Pierson and DLA Piper were
only first retained by Mr. Fussell on February 14, 2020. Mr. Pierson was not
involved in the proceedings below.
Mr. Fuessell's petition will involve a careful analysis of the substantive
and procedural differences between Louisiana's juvenile courts and district courts, a
comparison of Louisiana's Children's Code Art. 305(A) with similar transfer statutes
of other jurisdictions, and the presentation of substantial research on the
consequences of treating a child as an adult for criminal charges and sentencing. Mr.
Fussell's counsel must familiarize themselves with these issues, including the record
and arguments presented below.

WEST\289633847.1

3.

The requested 45-day extension will allow Mr. Fussell's counsel

sufficient time to prepare the petition and .to present these important constitutional
issues to the Court.
Accordingly, Applicant respectfully requests that an order be entered
extending the time to file a petition for a writ of certiorari for 45 days, up to and
including April 24, 2020.

4
WEST\289633847.1

February 28, 2020

Adam Pierson
Counsel of Record
Application for Admission Pending
Kenneth Schmetterer
Trumon Phillips
Virginia Weeks
Dante Alessandri
DLA Piper LLP (US)
1900 N. Pearl Street
Suite 2200
Dallas, Texas 75201
(214) 743-4512
adam.pierson@dlapiper.com
AND
Shannon Christian
402 North Jefferson Avenue
Covington, LA 70433
(985) 809-1498
schristian@northshoredefenders.org
Counsel for Applicant Hunter Fussell

5
WEST\289633847.1

